                                CLOSEOUT FOR M-95030012




  Equipment and Other Resourcesu section instead of in the proposal's "Current and Pending
  Support" (CPS) section. The subject's inclusion of the private foundation grant in a section other
  than the CPS section was considered inappropriate and misleading: inappropriate, because it
  required reviewers to assemble information contained in the proposal about existing awards, all of
  which should have been included by the subject in the CPS section; and misleading, because the
. CPS section showed the subject's total-time commitment on other existing awards without
  including the private foundation grant. Further, the panel was concerned that the total-time
  commitment as shown by the subject on existing awards in the CPS section was unclear and
  appeared to exceed 100 percent. The program officer wanted OIG to determine if the subject had
  done anything improper.

           OIG noted that &e private foundation grant, as described by the subject in the proposal,
  focused on resource development at the institution rather than on the subject's personal research
  activities. OIG also noted that the subject's method of describing his time commitment on current
  awards in the CPS section was confusing. However, OIG determined that both matters were
                                                                    \
  program issues, and not, at the level found here, issues of misconduct. OIG suggested that the
  program officer discuss the panel's concerns with the subject.

          The program officer, -who contacted - the subject, told OIG that the subject .received no
  financial support from the private foundation grant because it was strictly for resource
  development at the institution. In addition, the subject agreed to use a different method to describe
  his time commitment in his CPS section in future proposal submissions.

         OIG concluded that the issues in this case were appropriately resolved by the program.
  This inquiry was closed and no fbrther action will be taken.

  cc:     Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG

                                              Page 1 of 1
